No. 19-1130

In The Supreme Court Of The United States
DANIELSON, DALE ET AL.,
PETITIONERS,

v.
INSLEE, JAY ET AL.,

CERTIFICATE OF
WORD COUNT

RESPONDENTS.

Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Brief In Opposition, which was prepared using Century Schoolbook
12-point typeface, contains 2,971 words, excluding the parts of the document that are
exempted by Rule 33.1(d). This certificate was prepared in reliance on the word-count
function of the word-processing system (Microsoft Word) used to prepare the document.
I am a member of the Bar of the Supreme Court of the United States.
DATED this 15 day of May 2020.
s/ Alicia O. Young
ALICIA O. YOUNG
Deputy Solicitor General
Counsel of Record
1125 Washington Street SE
Olympia, WA 98504-0100
360-586-2697

